                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE' OF INSPECTOR GENERAL                             •   1



                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: 1-07120048                                                                       Page 1 of 1



        We initiated this investigation based on a complaint that a PI 1 had not spent any award2 funds
        during the first two years of the award, but had filed two annual reports claiming work had been
        done.

        Wedetennined that the work had been done on the award in question; however, some ofthe
        charges to another award made to the same PI3 were improper, Based on oui findings, the
        institution4 reviewed two additional NSF awards5 and discovered similar improper charges. The
        institution returned the funds at issue6 to NSF via check and changed its policies and procedures
        to strengthen controls and altered training on the same.                                .

         During the course of our investigation we also discovered that an institution employee7,
          responsible for handling the NSF awards at issue, had plead guilty to a state felony related to
          misuse of her position. We recommended, and NSF concurred, that the individual be debarred
        .                              8
          for a period of three years.


        In light of the abpve, no further investigative effort is necessary in this matter.

        . Accordingly, this case is closed.




NSF oro Form 2 (11102)
